                            Offices of Inspector General
                 of the Departments of Commerce, Defense, Energy,
           Homeland Security, and State and the Central Intelligence Agency
Report No. D-2004-062                                                                        April 16, 2004

                   Interagency Review of Foreign National Access to
                   Export-Controlled Technology in the United States

                                          Executive Summary

Introduction
Public Law 106-65, “National Defense Authorization Act for FY 2000,” section 1402,
requires the President to submit an annual report to Congress, each year through 2007, on
the transfer of militarily sensitive technology to countries and entities of concern. The
National Defense Authorization Act further requires that the Inspectors General of the
Departments of Commerce, Defense, Energy, and State, in consultation with the
Directors of Central Intelligence and the Federal Bureau of Investigation,1 conduct an
annual review of policies and procedures of the U.S. Government with respect to their
adequacy in preventing the export of sensitive technology and technical information to
countries and entities of concern. An amendment to section 1402(b), in section 1204 of
the National Defense Authorization Act for FY 2001, further requires that the Inspectors
General include in the annual report the status or disposition of recommendations set
forth in previous annual reports issued pursuant to section 1402. This year, to comply
with the fifth-year requirement of the Act, the Offices of Inspector General (OIGs)
conducted an interagency review of the release of export-controlled technology to foreign
nationals in the United States (FNUS) and compliance with the licensing requirements
contained in the Export Administration Regulations (EAR)2 and the International Traffic
in Arms Regulations (ITAR).3 Because the Department of Homeland Security also has
responsibility for enforcing Federal export laws, the OIG for that agency participated in
this year’s review.
Background
The United States controls the export of certain goods and technologies for national
security, foreign policy, antiterrorism, and nonproliferation reasons, under the authority
of several laws, primarily the Export Administration Act of 19794 and the Arms Export
Control Act of 1976. Both the Department of Commerce’s EAR (for dual-use
commodities) and the Department of State’s ITAR (for munitions) restrict the export of

1
    The Federal Bureau of Investigation does not play an active role in the licensing process for export-
     controlled technology and, therefore did not participate in this interagency review.
2
    15 Code of Federal Regulations, part 730.
3
    22 Code of Federal Regulations, part 120.
4
    Although the Act last expired on August 21, 2001, the President extended export regulations under
    Executive Order 13222, dated August 17, 2001, which invoked emergency authority under the
    International Emergency Economic Powers Act.
controlled technology or technical data to foreign nationals working in or visiting the
United States. This report uses the term “the release of export-controlled technology to
FNUS” to describe deemed exports as defined by the EAR and the release of technical
data to a foreign person as defined by the ITAR.5

Objectives
Our overall objective was to assess whether U.S. laws and regulations adequately protect
against the transfer of export-controlled U.S. technology and technical information to
FNUS from countries and entities of concern. Specifically, we examined whether U.S.
academic institutions, Federal contractors and other private companies, and research
facilities6 complied with licensing regulations for the release of export-controlled
technology to FNUS and whether licenses were obtained, as necessary, for foreign
national employees, students, and visitors. In addition, we assessed the Federal
Government’s implementation of the regulations for the transfer of export-controlled
technology to FNUS. Specifically, we assessed whether the Federal Government’s
policies and procedures foster compliance with those regulations and whether those
policies and procedures also provide a reasonable level of assurance that export-
controlled technology is adequately protected and not released to FNUS without the
proper authorization.

Review Results
Awareness of Export Regulations. Commerce, State, and Homeland Security OIGs
found that each agency could improve its outreach program to raise awareness and
understanding of regulations regarding the release of export-controlled technology to
FNUS. Commerce, Defense, and Energy OIGs also found that some academic
institutions, Federal contractors and other private companies, and research facilities
lacked awareness and understanding of requirements for the release of export-controlled
technology to FNUS. Overall, the lack of awareness and understanding of laws and
regulations pertaining to the release of export-controlled technology to FNUS could harm
national security if militarily sensitive technology is released to unauthorized foreign
nationals.

Compliance With Export Regulations. Commerce OIG found that its licensing agency,
the Bureau of Industry and Security (BIS), was not performing on-site inspections or
reviews to ensure compliance with Federal export laws and regulations related to controls
over the release of export-controlled technology to FNUS. In addition, State OIG found
that the Bureau of Political-Military Affairs, Directorate of Defense Trade Controls
(PM/DDTC) did not perform Government audits to monitor compliance with export
regulations, relying instead on voluntary disclosures by exporters and self-audits by
entities. Finally, Defense and Homeland Security OIGs found that their agency-specific
policies and procedures related to the release of export-controlled technology to FNUS
did not ensure compliance with U.S. export regulations. Overall, the lack of compliance,
monitoring, and adequate policies could degrade the integrity of the interagency licensing


5
    The ITAR restricts the release of technical data to foreign persons in both the United States and abroad.
     The use of the term “the release of export-controlled technology to FNUS” is a reflection of the majority
     of the work performed in this review, but should not be interpreted as a limitation of the ITAR
     restrictions to foreign persons in the United States.
6
    This term encompasses Government-owned research facilities and Federally Funded Research and
     Development Centers.

                                                        ii
process, putting the United States at an increased risk of releasing export-controlled
technology to FNUS from countries of concern.

Reexamination of License Exemptions. Commerce and Defense OIGs found that some
of the Federal export license exemptions were broadly applied and might offer a means
for a foreign national from a country of concern to circumvent regulations related to the
release of export-controlled technology to FNUS. Several of the license exemptions
outlined in Federal export regulations eliminate licensing requirements for a large
number of FNUS. For instance, licensing exemptions in both the EAR and the ITAR
apply to fundamental research and to foreign nationals with permanent resident status.
The EAR also exempts publicly available technology and software that are already
published or will be published or are educational. Commerce and Defense OIGs believe
that broadly applied exemptions might allow the transfer of sensitive U.S. technology to
countries or entities of concern and could ultimately affect national security.

Followup on Prior Interagency Reviews
As required by the National Defense Authorization Act for 2001, as amended,
Appendix H (Volume II) provides the status of recommendations from previous reports.
Appendix H also discusses the status of interagency OIG recommendations from Report
No. D-2002-074, “Interagency Review of Federal Automated Export Licensing
Systems,” March 29, 2002, the only interagency report that included interagency
recommendations, and the status of each agency-specific recommendation made in prior
reports issued by the agencies.

Management Comments
There are no interagency recommendations in this year’s report; therefore, management
comments on the interagency report are not required. The participating OIGs made
specific recommendations relevant to their own agencies. Recommendations,
management comments, and OIG responses are included in the separate reports each
office issued, which are in Appendix B (Commerce), Appendix C (Defense), Appendix D
(Energy), Appendix E (Homeland Security), and Appendix F (State). Appendixes B, C,
and D are in Volume I. Appendixes E and F are in Volume II, which is exempt from the
Freedom of Information Act and restricted in its distribution. Appendix E is For Official
Use Only (FOUO); Appendix F is Sensitive But Unclassified (SBU). Also included in
Volume II is Commerce’s addenda and Appendix H, which are both FOUO.

The CIA OIG report is classified (Confidential) and, therefore, is not included as an
appendix in this report. Please contact the CIA OIG’s Executive Officer at (703)
874-5368 to request a copy of the CIA report.




                                             iii
Table of Contents

Executive Summary                                                        i

Introduction                                                             1

Background                                                               2

Objectives                                                               5

Review Results
     A. Awareness of Export Regulations                                  7
     B. Compliance With Export Regulations                              17
     C. Reexamination of License Exemptions                             24

Appendixes
     A. Scope and Methodology
         Interagency Scope                                              29
         Interagency Methodology                                        29
         Agency-Specific Methodology                                    30
     B. Department of Commerce Report                     (Volume I)   B-1
     C. Department of Defense Report                      (Volume I)   C-1
     D. Department of Energy Report                      (Volume I)    D-1
     E. Department of Homeland Security Report (FOUO)   (Volume II)    E-1
     F. Department of State Report (SBU)                 (Volume II)   F-1
     G. Department of Commerce Addenda (FOUO)           (Volume II)    G-1
     H. Followup on Prior Interagency Reviews (FOUO)    (Volume II)    H-1
Acronyms

AECA       Arms Export Control Act
BIS        Bureau of Industry and Security
CBP        U.S. Customs and Border Protection
CIA        Central Intelligence Agency
CIS        U.S. Citizenship and Immigration Services
DTSA       Defense Technology Security Administration
EAA        Export Administration Act
EAR        Export Administration Regulations
FNUS       Foreign Nationals in the United States
FOUO       For Official Use Only
ICE        U.S. Immigration and Customs Enforcement
ITAR       International Traffic in Arms Regulations
NIST       National Institute of Standards and Technology
NOAA       National Oceanic and Atmospheric Administration
OIG        Office of Inspector General
PM/DDTC    Bureau of Political-Military Affairs, Directorate of Defense Trade
              Controls
PSA        Project Shield America
SAO        Security Advisory Opinion
SBU        Sensitive But Unclassified
SIA        Society for International Affairs
WINPAC     Weapons Intelligence, Nonproliferation and Arms Control Center
Introduction
            Public Law 106-65, “National Defense Authorization Act for FY 2000,”
            section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to
            Countries and Entities of Concern,” October 5, 1999, requires that the President
            submit an annual report to Congress, from 2000 through 2007, on the transfer of
            militarily sensitive technology to countries and entities of concern. The National
            Defense Authorization Act further requires that the Inspectors General of the
            Departments of Commerce, Defense, Energy, and State, in consultation with the
            Directors of Central Intelligence and the Federal Bureau of Investigation, conduct
            an annual review of the policies and procedures of the U.S. Government with
            respect to their adequacy to prevent the illegal export of any sensitive technology
            and technical information to countries and entities of concern. An amendment to
            section 1402(b), in section 1204 of the National Defense Authorization Act for
            FY 2001, further requires that the Inspectors General include in the annual report
            the status or disposition of recommendations set forth in previous annual reports
            issued pursuant to section 1402.

            To comply with the first-year requirement of the National Defense Authorization
            Act, the Offices of Inspector General (OIGs) conducted agency-specific and
            interagency reviews of:

                     •    Federal agency compliance with the license requirements for the
                          release of export-controlled technology to foreign nationals1 in the
                          United States (FNUS) contained in the Export Administration
                          Regulations (EAR) and the International Traffic in Arms Regulations
                          (ITAR) respectively, and

                     •    U.S. Government efforts to protect against the illicit transfer of U.S.
                          technology through select intelligence, counterintelligence, foreign
                          investment reporting, and enforcement activities.

            In March 2000, two interagency reports were issued: Report No. D-2000-109,
            “Interagency Review of the Export Licensing Process for Foreign National
            Visitors,” and Report No. 00-OIR-05, “Interagency Inspectors General
            Assessment of Measures to Protect Against the Illicit Transfer of Sensitive
            Technology (U).” To meet the second-year requirement of the Act, the OIGs
            conducted an interagency review to assess policies and procedures for
            developing, maintaining, and revising the Commerce Control List and the U.S.
            Munitions List.2 The interagency report, D-2001-092, “Interagency Review of
            the Commerce Control List and the U.S. Munitions List,” was issued in March

1
    This report’s use of the term foreign national encompasses both foreign nationals and foreign persons, as
     defined by the EAR and the ITAR. The EAR uses the term foreign national to refer to any person who is
     not a permanent resident of the United States or is not a protected individual as defined by the
     Immigration and Naturalization Act. The ITAR defines a foreign person as “any natural person who is
     not a lawful permanent resident as defined by 8 U.S. Code 1101(a)(20) or who or is not a protected
     individual as defined by 8 U.S. Code 1324b(a)(3).”
2
    That list includes those items, technologies, and services that are inherently military in character and
     could, if exported, jeopardize national security or foreign policy interests of the United States.

                                                          1
            2001. For the third-year requirement of the Act, the OIGs conducted an
            interagency review of the Federal automation programs that support the export
            licensing and enforcement process. That interagency report, D-2002-074,
            “Interagency Review of Federal Automated Export Licensing Systems,” was
            issued in March 2002. For the fourth-year requirement of the Act, the OIGs
            conducted an interagency review of U.S. Government activities to enforce export
            controls and prevent or detect the illegal transfer of militarily sensitive technology
            to countries and entities of concern. That interagency report, Report No. D-2003-
            069, “Interagency Review of Federal Export Enforcement Efforts,” was issued in
            April 2003. This year, to comply with the fifth-year requirement of the Act, the
            OIGs conducted an interagency review of the release of export-controlled
            technology to FNUS at U.S. academic institutions,3 Federal contractors and other
            private companies, and research facilities.4 In addition, we assessed the Federal
            Government’s implementation of regulations related to the transfer of export-
            controlled technology to FNUS.
            The Department of the Treasury’s Office of the Inspector General, when the
            Treasury had oversight authority for the U.S. Customs Service, participated in
            several interagency OIG reviews of export licensing and enforcement. On
            January 24, 2003, the Department of Homeland Security was created and the
            responsibilities of the U.S. Customs Service, Department of the Treasury, were
            transferred on March 1, 2003 to two new bureaus within Homeland Security:
            U.S. Customs and Border Protection (CBP) and U.S. Immigration and Customs
            Enforcement (ICE). Since then, CBP and ICE have been responsible for
            enforcing Federal export control laws; therefore, the Homeland Security OIG was
            invited and agreed to participate in this year’s interagency OIG review.


Background
            The United States controls the export of certain goods and technologies for
            national security, foreign policy, antiterrorism, and nonproliferation reasons,
            under the authority of several laws. The primary legislative authority for
            controlling the export of goods and technologies that have both commercial and
            military applications (dual-use items) is the Export Administration Act (EAA) of
            1979,5 as amended (appendix 2401, title 50, United States Code). The export of
            Defense articles and services (munitions) is controlled under authority of the
            Arms Export Control Act (AECA) of 1976 (section 2751, title 22, United States
            Code).

            To export means to send or take commodities (material and equipment), computer
            software, or technical data from the United States to a foreign destination or to
3
    This report’s use of the term academic institutions includes both universities and other institutions of
     higher learning.
4
    This term encompasses Government-owned research facilities and Federally Funded Research and
    Development Centers.
5
    Although the Act last expired on August 21, 2001, the President extended the export regulations under
    Executive Order 13222, dated August 17, 2001, which invoked emergency authority under the
    International Emergency Economic Powers Act.

                                                         2
            transfer technical data, including computer software, by any means to a foreign
            destination or to a foreign national. According to the EAR, any release to a
            foreign national in the United States of software or technology that is subject to
            the EAR is “deemed to be an export to the home country of the foreign national.”
            Those exports are commonly referred to as “deemed exports.” According to the
            ITAR, unless otherwise exempted, a license is required for “disclosing (including
            oral or visual disclosure) or transferring technical data to a foreign person,
            whether in the United States or abroad.” This report uses the term “the release of
            export-controlled technology to FNUS” to describe deemed exports as defined by
            the EAR and the release of technical data to a foreign person as defined by the
            ITAR.6 This report also uses the term “foreign national” to mean any foreign
            national worker or visitor who is in the United States without permanent resident
            status.

            Commerce. Under the EAA, Commerce’s Bureau of Industry and Security (BIS)
            administers the EAR by developing export control policies, issuing export
            licenses, maintaining the Commerce Control List, and enforcing the laws and
            regulations for dual-use exports. BIS has two principal operating units involved
            in export controls. The units are Export Administration and Export Enforcement.
            The Export Administration unit is responsible for processing export license
            applications, outreach, and counseling efforts to help ensure exporters’
            compliance with the EAR, as well as monitoring certain license conditions to
            determine exporters’ compliance with the conditions. The Export Enforcement
            unit investigates alleged dual-use export control violations and coordinates its
            enforcement activities with other Federal agencies.

            Of the 12,446 export license applications BIS received during FY 2003,
            846 (7 percent) were for the release of export-controlled technology to FNUS. Of
            that number, 777 (about 92 percent) were approved, 9 (about 1 percent) were
            rejected, and 60 (about 7 percent) were returned without action.7 During
            FYs 2000 through 2003, the number of export license applications for the release
            of export-controlled technology to FNUS decreased 13 percent, from 968 to 846,
            and many of the FY 2003 applications were for renewals. Four companies
            accounted for more than 60 percent of the applications.

            In FY 2001, the Central Intelligence Agency (CIA) began sending BIS a database
            of end-user reports each month. BIS licensing officers query this database for any
            information regarding both the foreign nationals associated with an export license
            application and any affiliated entities the foreign nationals have on their résumé.
            According to BIS officials, no derogatory information was returned by the
            queries.


6
    The ITAR restricts the release of technical data to foreign persons in both the United States and abroad.
     The use of the term “the release of export-controlled technology to FNUS” is a reflection of the majority
     of the work performed in this review, but should not be interpreted as a limitation of the ITAR
     restrictions to foreign persons in the United States.
7
    A decision to return a license application to the exporter without action by BIS indicates that the license
    application has been neither approved nor denied. There are multiple reasons for a license application to
    be returned without action, including no license required for that particular transfer of technology or
    required documentation has not been submitted with the application.

                                                        3
            State. Under the AECA, State’s Bureau of Political-Military Affairs, Directorate
            of Defense Trade Controls (PM/DDTC) administers the ITAR by developing
            export control policies, registering companies and academic institutions to export
            munitions, issuing licenses and compliance provisions, and maintaining the U.S.
            Munitions List. Various offices within State review munitions export licenses
            and recommend approval, conditional approval, or disapproval of an applicant’s
            license, including those related to the release of export-controlled technology to
            FNUS.

            According to PM/DDTC officials, approximately 50,000 export licenses are
            issued annually, of which an estimated 35,000 export licenses are submitted by
            industry, to include applications for the transfer of technology to FNUS.
            However, due to limitations of the licensing database, the State OIG was unable
            to determine how many of those applications were for the release of export-
            controlled technology to FNUS.8

            Defense. Although the Departments of Commerce and State are responsible for
            issuing export licenses, the Department of Defense reviews license applications
            and provides recommendations to those agencies for approval, approval with
            conditions, or denial of licenses involving dual-use and munitions commodities or
            technology. The Defense Technology Security Administration (DTSA) serves as
            the focal point for processing license applications and advises the Under
            Secretary of Defense for Policy on issues related to the transfer of sensitive
            technology and the export of dual-use items and munitions. DTSA also assists in
            developing export control policies and procedures that are necessary to protect
            U.S. national security interests.

            Energy. Energy’s Office of Export Control Policy and Cooperation reviews
            license applications and recommends approval, approval with conditions, or
            denial of licenses involving nuclear dual-use and nuclear munitions commodities
            or technology referred to them by Commerce and State. In addition, Energy’s
            Office of Foreign Visits and Assignments establishes Energy Department policy
            for the access to Energy facilities by foreign national visitors.

            Homeland Security. U.S. export enforcement responsibilities are under the
            Department of Homeland Security’s CBP and ICE. CBP is responsible for
            enforcing all federal export laws, including those administered by Commerce,
            State, and other federal agencies while facilitating the legitimate flow of goods
            and people across national borders; ICE is responsible for enforcing and
            investigating criminal violations of Federal export laws, including those
            promulgated pursuant to the EAR and the ITAR. ICE special agents also conduct
            industry outreach visits designed to educate exporters about dual-use and
            munitions export laws. In addition, Homeland Security’s U.S. Citizenship and
            Immigration Services (CIS) processes foreign nationals’ applications for



8
    PM/DDTC officials stated that they had 761 search hits for keywords (such as foreign and national) in a
     query to the licensing database. However, they cautioned the State OIG that those 761 search hits
     represent the number of licenses in which the keywords appeared, but do not necessarily represent the
     number of licenses releasing export-controlled technology to FNUS.

                                                       4
            immigrant and non-immigrant benefits,9 including changes of visa status, work
            permits, and requests for lawful permanent residency, according to the authority
            established in various Federal immigration laws. CIS’s function in processing
            those benefits is performed without taking into account the release of export-
            controlled technology to FNUS; CIS does not currently have a role in the export
            control process.

            Central Intelligence Agency. The CIA does not have specific responsibilities
            for the licensing of exports but acts as an adviser to other Federal agencies that
            are assigned those responsibilities. Specifically, the CIA prepares intelligence
            reports and briefings, based on the results of its collection and analysis efforts.
            The DCI [Director of Central Intelligence] Center for Weapons Intelligence,
            Nonproliferation and Arms Control (WINPAC) provides periodic assessments of
            the technology targeted for acquisition by countries of concern and assesses the
            policies and motivations behind such acquisitions. In addition, from FY 1996
            through FY 2000, WINPAC analysts reviewed license applications for the release
            of export-controlled technology to FNUS by searching existing intelligence
            information contained in electronic databases. WINPAC analysts performed
            online queries of the foreign national names and other information contained in
            license applications. In addition, analysts browsed open-source information and
            sometimes consulted with area specialists to obtain leads on foreign nationals’
            relationships with other individuals and companies. Licenses were also
            forwarded to the Directorate of Operations’ External Inquiries Branch analysts,
            who conducted searches for existing intelligence information contained in the
            Directorate of Operations’ electronic databases. However, those searches yielded
            no new derogatory information. In October 2001, CIA discontinued these
            application reviews because managers stated that such reviews were time
            consuming, historically of limited value, and detracted from the Agency’s ability
            to focus its resources in areas that would make the greatest contribution to
            nonproliferation and export control goals.


Objectives
            Our overall objective was to assess whether the U.S. laws and regulations
            adequately protect against the transfer of export-controlled U.S. technology and
            technical information to foreign nationals from countries and entities of concern
            while they are in the United States. Specifically, we examined whether U.S.
            academic institutions, Federal contractors and other private companies, and
            research facilities complied with licensing regulations for the release of export-
            controlled technology to FNUS and whether licenses were obtained, as necessary,
            for foreign national employees, students, and visitors. In addition, we assessed
            the Federal Government’s implementation of regulations regarding the release of
            export-controlled technology to FNUS. Specifically, we assessed whether the
            Federal Government’s policies and procedures foster compliance with
            requirements for the transfer of export-controlled technology to FNUS and

9
    A benefit is a broad term to describe what a foreign national can apply for and for which CIS approval is
    required. Examples of benefits include asylum and refugee processing, citizenship, employment, foreign
    student authorization, and permanent residency.

                                                       5
whether those policies and procedures also provide a reasonable level of
assurance that export-controlled technology is adequately protected and not
released to FNUS without the proper authorization.




                                    6
                     A. Awareness of Export Regulations
                     Commerce, State, and Homeland Security OIGs found that each agency
                     could improve its outreach program to raise awareness and understanding
                     of regulations regarding the release of export-controlled technology to
                     FNUS. Specifically, Commerce OIG reported that BIS’s outreach
                     program did not include entities other than those applying for export
                     licenses for the release of export-controlled technology to FNUS and that
                     some of Commerce’s export guidance designed to help exporters may be
                     inaccurate or unclear. State OIG found that State’s outreach program
                     could be improved if Commerce and State provided joint training that
                     explains the differences between the two Departments’ licensing
                     procedures. Homeland Security OIG found that there was no standard
                     operating procedure for its outreach program that special agents could use
                     when selecting export control topics to present. In addition, Commerce,
                     Defense, and Energy OIGs found that some academic institutions, Federal
                     contractors and other private companies, and research facilities lacked
                     awareness and understanding of requirements related to the release of
                     export-controlled technology to FNUS. Specifically, Commerce OIG
                     found that at the nine academic institutions and two research facilities it
                     visited, most officials were not aware that export control regulations
                     applied to the technology associated with the use of controlled equipment.
                     Defense OIG determined that 3 of the 11 Federal contractors and 1 of the
                     3 Federal research facilities visited were generally unaware of the Federal
                     export laws and regulations to either obtain a license or prevent
                     unauthorized disclosure of export-controlled technology to FNUS.
                     Energy OIG also found that some sponsors were not knowledgeable of
                     their responsibilities regarding the release of export-controlled technology
                     to FNUS and that officials at the research facility Energy OIG visited were
                     also not aware of export control regulations as they applied to the use of
                     controlled equipment by foreign nationals. Overall, the lack of awareness
                     and understanding of laws and regulations pertaining to the release of
                     export-controlled technology to FNUS could harm national security if
                     militarily sensitive technology is released to unauthorized foreign
                     nationals.


Export Licensing Process
            When releasing export-controlled technology to FNUS, Federal export laws and
            regulations require the U.S. entity sponsoring the foreign national to obtain either
            an export license or other authorized approval or to qualify for an exemption.10 If
            a license is required, it is the responsibility of the U.S. entity to submit an export
            license application for review to Commerce for dual-use items or to State for
            munitions. Commerce or State can approve, approve with conditions, reject, or
            return without action a license application for access to export-controlled

10
     An exemption or exception is an authorization that allows an exporter to export controlled items under
     stated conditions that would otherwise require a license.

                                                        7
           technology by a foreign national employee, student, or visitor. If an export
           license is approved, the entity is permitted to allow the foreign national listed on
           the license access to export-controlled technology. The U.S. entity is also
           responsible for ensuring that the foreign national has access to only the export-
           controlled technology specified in the license. If the entity does not obtain a
           license or qualify for an exemption, it must have controls in place to ensure that
           foreign nationals do not have access to the export-controlled technology.


Efforts to Raise Awareness
           Commerce, State, and Homeland Security OIGs found that each agency could
           improve its outreach program to raise awareness and understanding of regulations
           related to the release of export-controlled technology to FNUS. Commerce OIG
           also found that some of the EAR’s guidance concerning the release of export-
           controlled technology to FNUS may be inaccurate or unclear. Commerce and
           State have responsibilities for educating U.S. industry, the academic community,
           and Federal agencies on EAR and ITAR requirements for the release of export-
           controlled technology to FNUS. In addition, Homeland Security has made the
           strategic decision to educate industry on export controls through its Project Shield
           America (PSA) program.

           Commerce’s Outreach Program. Commerce OIG reported that BIS greatly
           expanded its efforts to raise awareness of export regulations concerning the
           release of export-controlled technology to FNUS since the issuance of Commerce
           OIG’s March 2000 export control report,11 but two areas still needed
           improvement.

                   Expansion of Program. Although BIS expanded its export outreach
           activities concerning the release of export-controlled technology to FNUS in
           FY 2003, it mainly focused on those entities (companies and industry sectors) that
           were already applying for such licenses rather than those (small businesses,
           Federal contractors, and the academic and Federal research communities) that
           were not.

                   From November 2002 through September 2003, BIS reported conducting
           43 specific export outreach activities (38 visits and 5 seminars) concerning the
           release of export-controlled technology to FNUS. The activities, however, were
           primarily focused on a limited audience, and it should be noted that the total
           includes multiple visits to some of the same entities to update them on proposed
           changes to export licensing conditions for the release of export-controlled
           technology to FNUS. Although updating knowledgeable entities on export
           licensing requirements facilitates continuing education, it does not expand
           outreach to those entities that are not currently aware of or complying with
           requirements. The following figure breaks down the outreach activities that
           BIS conducted.


11
     Commerce OIG Report No. IPE-12454-1, “Improvements are Needed in Program Design to Protect
     Against the Transfer of Sensitive Technologies to Countries of Concern,” March 24, 2000.

                                                   8
                                                           BIS Export Outreach Activities

              Number of Activities
                                              14
                                     15
                                                                          9
                                     10                    7
                                                                                     4            5             4
                                      5
                                      0
                                           Visits with  Visits with Visits with Visits with   BIS Export   Visits with
                                           Companies     Industry BIS Technical    U.S.         Control     Human
                                          and Research Associations  Advisory   Government     Outreach    Resource
                                             Groups                 Committees   Agencies      Seminars     Groups*

                      *Industry groups and associations representing human resource officials responsible for
                      processing foreign national employees.


                    During FY 2003, BIS met with some of its own Technical Advisory
            Committees, several large companies, and trade associations primarily associated
            with the semiconductor industry. BIS focused on the semiconductor industry
            because it accounts for 78 percent (661)12 of the 846 export license applications
            for the release of export-controlled technology to FNUS processed in FY 2003.
            In addition, although BIS reported that it met on four occasions with other Federal
            agencies, only two of those visits, to the Department of Energy and to
            Commerce’s National Oceanic and Atmospheric Administration (NOAA),
            involved education on export controls concerning the release of export-controlled
            technology to FNUS. The other visits involved discussions with other license
            referral agencies about the export licensing process for the release of export-
            controlled technology to FNUS.

                     Strategy for Expansion of Program. BIS lacked an overall written
            strategy to identify other U.S. entities that might employ or host foreign nationals.
            Most export license applications for the release of export-controlled technology to
            FNUS submitted in FY 2003 involved electronics, computers, and
            telecommunications and information security systems. The license application
            data suggest that many industries (including chemical and biotechnology),
            academic institutions, and Federal research facilities that might employ or host
            foreign nationals are not applying for export licenses for the release of export-
            controlled technology to FNUS. Commerce OIG recommended that BIS establish
            a strategic outreach plan for exports of controlled technology to FNUS that has
            annual goals and identifies priority industries, Federal agencies, and academic
            institutions that are not currently applying for export licenses concerning the
            release of export-controlled technology to FNUS.

                    BIS management stated that it has taken a number of actions to address
            this recommendation. Specifically, BIS stated that it monitors and evaluates the
            type and quantity of its export outreach activities concerning the release of
12
     Because applications may contain a request to export more than one technology, this number represents
     the total number of requests for this technology from all applications.

                                                                      9
           export-controlled technology to FNUS on a quarterly basis to ensure that it targets
           the appropriate industry sectors. BIS management also stated that it will continue
           to identify priority industries and conduct outreach later this year to small- and
           medium-sized businesses and defense contractors to educate those types of
           companies about dual-use export control rules involving the release of export-
           controlled technology to FNUS. In addition, BIS stated that it has already
           targeted outreach in the area of biotechnology by discussing export policies and
           procedures concerning the release of export-controlled technology to FNUS with
           the biotechnology industry and academia, as well as visits to U.S. Government
           research labs, universities, small business associations, and foreign student
           associations.

           BIS offers supplemental questions and answers in the EAR13 and on its Web site
           to help exporters better evaluate individual applicability of the export regulations
           concerning the release of export-controlled technology to FNUS. However,
           Commerce OIG found that at least two of the answers provided might be
           inaccurate or unclear. Specifically, one answer stated that research that is subject
           to a prepublication clearance is not subject to the EAR and the other stated that a
           foreign national working in a laboratory (and presumably using export-controlled
           equipment) would not require an export license if the work performed qualified as
           fundamental research. Both answers contradict the interpretation of the EAR by
           BIS officials, as reported to Commerce OIG. Therefore, Commerce OIG
           recommended that BIS clarify and periodically update the questions and answers
           concerning the release of export-controlled technology to FNUS (see page 23 on
           the Commerce report, Appendix B). BIS management stated that it would update
           the question and answer section in the EAR to provide clarity to the export
           community and Government and academic research laboratories.

           State’s Outreach Program. State OIG found that its outreach program, which
           educates exporters on export control procedures and processes, could be
           improved if Commerce and State provided joint training that explains the
           differences between the two Departments’ licensing requirements and procedures.
           The PM/DDTC Office of Policy officials responsible for outreach initiatives told
           State OIG that their primary forum for outreach is the Society for International
           Affairs (SIA) and its related export control conferences. SIA holds four
           conferences a year, which are attended by approximately 400 export control
           officials per conference. Licensing and compliance officers from State conduct
           training sessions at those conferences. State officials said that the training covers
           export control violations and ITAR exemptions. Export control staff and
           empowered officials14 at companies and academic institutions that the State OIG
           visited stated that both export licensing agencies (Commerce and State) provide
           excellent training through their outreach programs. However, company and

13
     Supplement 1 to part 734 of the EAR.
14
 Section 120.25 of the ITAR defines an empowered official: An empowered official must be a U.S.
 person (permanent resident alien or U.S. citizen); be legally empowered in writing by the applicant
 (company or academic institution or research facility) to sign license applications; be knowledgeable
 about export control statutes and regulations, criminal and civil liability, and administrative penalties for
 violating the AECA and the ITAR; and be authorized to inquire into any aspect of a proposed export,
 verify the legality of a transaction, and refuse to sign any license application without prejudice.



                                                     10
    academic institution empowered officials also stated that more joint BIS and
    PM/DDTC training would be beneficial to the export community and that the
    joint sessions could provide a forum to compare, contrast, and resolve differences
    between the two Departments’ licensing and compliance processes and
    procedures. State recommended that PM/DDTC improve its outreach program by
    coordinating outreach initiatives with BIS and increasing the number of jointly
    sponsored training sessions provided to the U.S. export community. State
    management concurred with the recommendation. Specifically, PM/DDTC
    agreed with the thrust of this recommendation and continues to look for outreach
    opportunities and to work on educating the export community about Defense
    trade controls as they relate to foreign national employment in the United States.
    PM/DDTC suggested, however, that those outreach efforts would not necessarily
    have to be joint PM/DDTC-Commerce activities. State OIG considers this
    recommendation resolved and will close it upon review of updated outreach
    plans.
    Homeland Security. The ICE PSA assists in the prevention of export violations.
    Under PSA, special agents within the Strategic Investigations Division (SID)
    cultivate relationships with and obtain the cooperation of U.S. companies
    involved in the manufacture, sale, or export of U.S. strategic technology and
    munitions that could harm the country if illegally exported to countries or entities
    of concern. The focus of the outreach program is to prevent the proliferation of
    controlled technology and components; prevent the unlawful acquisition of
    nuclear, chemical, and biological weapons; and prevent the unlawful exportation
    of weapon systems and classified or controlled technical data.

    Although written guidance for PSA existed, it was not incorporated into a
    standard operating procedure or a checklist that special agents could use when
    selecting export control topics to present during their outreach visits. Without
    adequate guidance about all export laws and regulations, special agents could fail
    to present to companies critical export control laws and regulations, particularly
    those specific to transfer of export-controlled technology to FNUS. In addition, if
    PSA visits consistently include a discussion of such regulations, companies could
    better avoid committing export violations. Homeland Security OIG
    recommended that the Assistant Secretary, ICE, continue efforts to implement
    standard operating procedures for special agents’ use when conducting PSA
    visits, and also include a standardized checklist of items to ensure that the release
    of export-controlled technology to FNUS is included in PSA presentations.
    Homeland Security management concurred with the recommendation.


Level of Awareness
    The following paragraphs discuss each agency’s findings related to the level of
    awareness reported by academic institutions, companies, and Federal research
    facilities concerning requirements for the release of export-controlled technology
    to FNUS.

    Awareness of Export Control Regulations Within the Academic Community.
    Commerce OIG reported that, in general, officials at the academic institutions

                                         11
            visited were aware of the majority of requirements for export controls on the
            release of export-controlled technology to FNUS. For example, academic
            officials with whom Commerce OIG spoke were aware of the export license
            exemptions on the release of export-controlled technology to FNUS and, in fact,
            used the EAR’s fundamental research exemption15 for most of their research.
            However, they were unaware that when foreign nationals are given access to
            controlled equipment, the use of that equipment during the conduct of
            fundamental research at an academic institution is subject to the export
            requirements in the EAR.

            Commerce OIG found that many of the officials at the nine academic institutions
            visited had not contemplated the transfer of technology associated with the use of
            controlled equipment in the context of EAR requirements. Some officials stated
            to Commerce OIG that the use of controlled equipment in the context of
            fundamental research is also exempt. However, according to BIS, technology
            relating to the use of controlled equipment is subject to the export regulations
            concerning the release of export-controlled technology to FNUS in the EAR even
            if the research being conducted with that equipment is fundamental. The BIS
            interpretation would mean that many academic laboratories and institutions would
            need to seek export licenses for some foreign nationals working with controlled
            equipment or restrict the foreign nationals’ access to such equipment. Commerce
            OIG recommended that BIS inform the U.S. academic community, industry, and
            Federal agencies of export controls associated with the technology for the use of
            EAR-controlled equipment by foreign nationals.

            BIS management agreed to work with its legal counsel as well as with Defense
            and State to determine whether the current definition of “use” technology in the
            EAR should be revised and to determine whether to harmonize this definition
            among the multilateral export control regimes. BIS management also stated that
            if the licensing agencies agree to revise the definition, it would publish the
            regulatory revision and incorporate it into outreach to Government agencies,
            industry, and universities to ensure a common interpretation and correct
            application of the term as it relates to exports of controlled technology to FNUS.

            Awareness of Export Control Regulations at Commerce Research Facilities.
            To follow up on prior Commerce OIG recommendations related to export controls
            on the release of export-controlled technology to FNUS, Commerce OIG
            conducted surveys at two of Commerce’s scientific agencies—the National
            Institute of Standards and Technology (NIST) and NOAA. Commerce OIG found
            that many of the officials at the two agencies had not contemplated that
            technology associated with the use of controlled equipment could be considered
            EAR-controlled technology and, therefore, subject to export controls. Based on
            discussions with senior officials and an overview of security procedures at both
            agencies, Commerce OIG identified some potential weaknesses with regard to
            exports of controlled technology to FNUS and access to controlled technology by
            foreign national visitors.


15
     Fundamental research is defined in the EAR as “basic and applied research in science and engineering,
     where the resulting information is ordinarily published and shared broadly within the scientific
     community.” For additional discussion of the fundamental research exemption, see page 25.

                                                      12
                    NIST. After Commerce OIG’s March 2000 review, NIST instituted a
            written export control policy that attempted to control foreign national access to
            controlled technology. NIST also provided export control training to its
            employees. Despite those efforts, NIST officials maintain that the majority of
            their research is fundamental and, therefore, exempt from export regulations on
            the release of export-controlled technology to FNUS. However, Commerce OIG
            determined that NIST officials were unaware that the use of controlled equipment
            by foreign nationals during the conduct of fundamental research is still subject to
            the EAR.

                    Commerce OIG identified at least one piece of EAR-controlled
            equipment—a 5-axis machine tool16—at NIST’s Manufacturing Engineering
            Laboratory machine shop located in Gaithersburg, Maryland. According to NIST,
            the only two individuals who are authorized to "operate" the 5-axis machine are
            NIST employees as well as U.S. citizens (both utilize private passwords to
            operate the machine). While the Manufacturing Engineering Laboratory hosts 45
            foreign guest researchers at any given time (including a foreign national from a
            terrorist-supporting country)17, NIST indicated that no foreign national from a
            country of concern conducted research involving this machine. However, NIST
            informed Commerce OIG that the lab's machine shop is open during normal
            business hours to all lab researchers-including guest researchers. Furthermore,
            during Commerce OIG's tour of the machine shop, it noted the 5-axis machine
            tool's operations manual lying in the open on a tool cabinet across from the
            machine. Given that NIST is unsure of what other EAR-controlled equipment
            may be housed at this or its other facilities, Commerce OIG recommended that
            NIST review the equipment on hand in its labs to identify EAR-controlled
            technology; interview equipment owners to establish which foreign nationals (if
            any) use or have access to the equipment; and work with BIS to develop an
            effective means to identify when an export license for the release of export-
            controlled technology to FNUS might be required. Commerce OIG also
            recommended that NIST conduct periodic export control training related to the
            release of export-controlled technology to FNUS for all its employees that work
            with EAR-controlled technology or equipment. Finally, Commerce OIG noted
            that NIST’s new Editorial Review Board process—which requires a
            prepublication clearance for all materials to identify sensitive material—may
            disqualify its researchers from using the EAR’s fundamental research exemption.
            Commerce OIG recommended that NIST work with BIS to determine whether its
            Editorial Review Board process voids EAR’s fundamental research exemption.

                   NIST management stated that it is currently in the process of inventorying
            its EAR-controlled equipment, although it did not specifically address the
            recommendation to also identify what foreign nationals have access to the
            equipment. In addition, NIST management did not address what action it would

16
 Machine tools cut and form metals or other hard materials with varying degrees of precision. They are
 essential to civilian industry, but they have a range of military applications as well. Specifically, they are
 useful for manufacturing many types of conventional weapons and vehicles; building nuclear weapons;
 manufacturing high-speed centrifuges that can enrich uranium to go into nuclear weapons; and making
 precision missile parts.
17
     The foreign national from the terrorist-supporting country is no longer at NIST and reportedly never
     began his research while there.

                                                       13
take with regard to our recommendation concerning the need for periodic export
control training for its employees. With regard to the recommendation
concerning its Editorial Review Board, NIST disagreed with Commerce OIG’s
finding that the new procedure—which requires a prepublication clearance for all
materials to identify sensitive material—may disqualify it from using the
fundamental research exemption in the EAR. Specifically, NIST’s response
stated that, based on BIS’s definition of “fundamental research,” if the intent of
NIST’s research is to publish and widely disseminate the results, then its work is
fundamental, regardless of any pre-reviews. However, Commerce OIG discussed
this issue with BIS officials, who indicated they would need more information on
NIST’s process before making a decision as to whether it voids the fundamental
research exemption. In response to the Commerce OIG draft report, BIS
indicated that they were willing to work with NIST on the issue.

        NOAA. Commerce OIG reported that NOAA lacks an overall export
control policy for the release of export-controlled technology to FNUS to ensure
effective monitoring and control of foreign national access to export-controlled
technology, despite Commerce OIG’s recommendations in its March 2000 report
and subsequent followup work in this area. NOAA officials, with the exception
of the National Environmental Satellite, Data, and Information Service, stated that
they did not believe that export control regulations concerning the release of
export-controlled technology to FNUS applied to them because they consider the
majority of their work fundamental research. However, Commerce OIG
determined that NOAA officials were unaware that the technology associated
with the use of controlled equipment during the conduct of fundamental research
by foreign nationals is subject to the EAR. The Deputy Assistant Secretary for
International Affairs indicated that some of NOAA’s facilities might contain
EAR-controlled equipment that foreign visitors or guest researchers might have
access to.

        In response to OIG concerns, NOAA management tasked the Deputy
Assistant Secretary for International Affairs with developing policies and
procedures to protect NOAA’s export-controlled technology. Commerce OIG
believes that this effort is a positive first step and looks forward to reviewing the
procedures when completed. Once NOAA issues its export control policies and
procedures for the release of export-controlled technology to FNUS, Commerce
OIG recommended that NOAA establish an employee-training program that
effectively disseminates those policies and procedures. Commerce OIG also
recommended that NOAA review its equipment inventory to determine what
equipment is EAR-controlled, what foreign nationals have access to the
equipment, and whether improved access controls are needed and whether an
export license may be required for the release of export-controlled technology to
FNUS. Finally, Commerce OIG recommended that NOAA review its research
and NOAA-sponsored research to determine the applicability of export controls
for the release of export-controlled technology to FNUS. NOAA management
agreed with the recommendations.

Awareness of Export-Controlled Technology Within Defense Contracted
Facilities. Of the 11 contractors, 6 academic institutions, and 3 Federal research
facilities the Defense OIG visited, 3 of the contractors and one Federal research
facility were generally unaware of the Federal export laws and regulations to

                                      14
either obtain a license or prevent unauthorized disclosure of export-controlled
technology to FNUS. None of the three contractors had adequate access controls
in place to safeguard export-controlled technology from unauthorized access by
foreign nationals that worked at or visited the facility. Two of those contractors
granted foreign nationals access to unclassified export-controlled technology
without an export license or other authorized approval and without qualifying for
an exemption. Both contractors were involved with innovative research and
development that could have a significant technological impact if compromised.

For example, one contractor conducted Defense research and development on
robotics and logistics software while employing five foreign nationals from
Brazil, India, South Korea, and Macedonia. A contractor official also stated that
the South Korean foreign national annually visited China. Defense OIG found
that foreign nationals had unauthorized access to work concerning at least two of
the five contracts that involved technology on the U.S. Munitions List. In
addition, another contractor conducted research and development on electronics
and engineering while employing foreign nationals from Australia, Italy, the
Netherlands, New Zealand, and South Africa. Defense OIG found that foreign
nationals had unauthorized access to at least two of the four contracts that
involved technology on the U.S. Munitions List. However, the contracts did not
identify the export-controlled technology. The contractor was unaware of export
laws and regulations and did not know how to safeguard unclassified export-
controlled technology from unauthorized access by foreign nationals.

Unauthorized access to unclassified export-controlled technology could allow
foreign nations to counter or reproduce the technology and thus reduce the
effectiveness of the technology, which could degrade combat effectiveness and
require DoD to significantly change the direction of the program affected.
Defense OIG recommended that Defense officials expand the Defense Federal
Acquisition Regulation Supplement to incorporate the requirements of Federal
export laws and regulations and ensure that Defense program managers and
contracting officers incorporate the requirements into contractual documentation.
Defense management concurred with the recommendation.

Awareness of Export-Controlled Technology at Energy Facilities. Energy
OIG interviewed 37 sponsors of foreign nationals at one U.S. company and one
Federal research facility and found that 14 sponsors either did not understand the
concept of the release of export-controlled technology to FNUS or were not
familiar with their responsibilities as a sponsor of foreign nationals. Energy OIG
determined that Energy policy for unclassified foreign visits and assignments was
incomplete, did not specify sponsor responsibilities, and needed to be updated.
Energy OIG also determined that there is inconsistent application of Energy
export control guidance regarding access by FNUS to sensitive technologies.
Energy OIG believes that the lack of knowledge by sponsors of their
responsibilities regarding foreign nationals could result in improper access by
foreign nationals to export-controlled technology. Energy OIG previously
addressed the need to update Energy’s policy for foreign visits and assignments in
the FY 2000 interagency review, but not all of the recommendations had been
implemented as of April 2004. Therefore, Energy OIG recommended that Energy
expedite the issuance of its draft policy on unclassified foreign visits and


                                    15
assignments that addresses sponsors’ training requirements and responsibilities.
Energy management concurred with the recommendation.

Energy OIG found that the U.S. company it reviewed fully considered issues
involving access by FNUS to sensitive equipment. Energy OIG also found,
however, that the Federal research facility did not consider visual access to
sensitive equipment or its use by foreign nationals, as required by Energy
guidelines. Specifically, Energy OIG found that the Federal research facility was
not aware of export control regulations as they applied to the use of controlled
equipment by foreign nationals. After Energy OIG reviewed documentation
pertinent to one Federal research facility project with Energy and Commerce
export control officials, the export control officials indicated that the equipment
for the project in question was potentially sensitive. Those officials said that
Federal research facility officials should ensure that projects be reviewed to
prevent inadvertent transfer of export-controlled technology to FNUS. Energy
OIG recommended that Energy ensure that export control guidance, including the
transfer of export-controlled technology to FNUS, is disseminated and is being
consistently implemented within the Department. Energy management concurred
with the recommendation.




                                    16
                B. Compliance With Export Regulations
                Commerce OIG found that BIS was not performing on-site inspections or
                reviews to ensure compliance by exporters with dual-use export control
                laws and regulations related to the release of export-controlled technology
                to FNUS. State OIG found that PM/DDTC did not perform Government
                audits to monitor compliance with export regulations, relying instead on
                voluntary disclosures by exporters and self-audits by companies. State
                OIG also found that visa policies and procedures and export control
                programs at the entities visited enhanced compliance with export control
                regulations. Defense and Homeland Security OIGs found that their
                agency-specific policies and procedures related to the release of export-
                controlled technology to FNUS did not ensure compliance with U.S.
                export control regulations. Specifically, Defense did not have adequate
                export control policies and procedures in place to ensure that export-
                controlled technology was identified in Defense contracts and to obtain
                reasonable assurance that the Defense contractors, academic institutions,
                and Federal research facilities prevented the unauthorized release of
                export-controlled technology to FNUS. Homeland Security OIG found
                that Homeland Security policies and procedures did not explicitly foster
                compliance with requirements for the release of export-controlled
                technology to FNUS and did not provide a reasonable level of assurance
                that export-controlled technology was adequately protected and not
                inappropriately released to FNUS. Overall, the lack of compliance,
                monitoring, and adequate policies could degrade the integrity of the
                interagency licensing process. In addition, there will continue to be an
                increased risk of releasing export-controlled technology to FNUS from
                countries of concern that could then counter or reproduce the technology
                and thus reduce its effectiveness.


Agency Policies and Procedures
       The following paragraphs describe each agency’s policies and procedures
       pertaining to compliance with requirements related to the transfer of export-
       controlled technology to FNUS and monitoring that compliance.

       Commerce Policies and Procedures. Commerce OIG reported that because BIS
       was not performing on-site inspections or reviews of entities holding an export
       license for the release of export-controlled technology to FNUS to ensure
       compliance with license conditions (as BIS does under its end-use check
       program18), those license holders were not held accountable for complying with

18
  BIS performs on-site inspections under its end-use check program. End-use checks verify the
legitimacy of overseas dual-use export transactions controlled by BIS. A pre-license check validates
information on export license applications by determining whether an overseas entity is a suitable party to
a transaction involving controlled U.S.-origin goods or technical data. Post-shipment verifications
strengthen assurances that exporters or foreign entities comply with the terms of export licenses by
determining whether goods exported from the United States were actually received by the appropriate
entity and are being used in accordance with the license provisions.

                                                   17
          license conditions. Compliance programs should involve on-site inspections of
          facilities to determine whether the license holder is complying with specific
          license conditions. In particular, all potential points of access to the controlled
          technology should be reviewed for appropriate safeguards, and a technology
          control plan19 should be implemented to ensure compliance with license
          conditions.

          The EAR allows BIS to limit a transaction authorized under an export license by
          placing conditions on the license. This is an important part of the interagency
          export license resolution process and offers BIS an additional means of
          monitoring certain transactions, such as technology transfers within the United
          States to foreign nationals from countries of concern. In fact, Commerce OIG
          found a number of export licenses for the release of export-controlled technology
          to FNUS for which Defense recommended approval with the condition that BIS
          monitor compliance with the license terms by the license holder.
          However, BIS informed Commerce OIG that it is not monitoring compliance with
          any export licenses for the release of export-controlled technology to FNUS—
          including those with conditional approvals from license referral agencies—
          because it does not have the resources to perform that function. BIS’s failure to
          monitor license conditions degrades the integrity of the interagency licensing
          process. For example, licensing referral agencies that depend on BIS to notify
          them of negative outcomes of license conditions are making decisions about
          future licenses with no information about the license holder’s compliance with
          conditions placed on previously issued licenses because no such information
          exists. As a result, the same companies are continually receiving export licenses
          for the release of export-controlled technology to FNUS regardless of whether
          they complied with previous license conditions.

          BIS managers met in the summer of 2003 with representatives of two companies
          that hold a large number of export licenses for the release of export-controlled
          technology to FNUS to review each company’s technology control plan.
          Although BIS officials talked with company representatives about how they were
          implementing their plans, the officials did not test the effectiveness of the
          programs to ensure compliance with the license conditions. As a result, despite
          the meetings, BIS could not definitively determine either company’s compliance
          with the license conditions.

          In response to prior Commerce OIG recommendations related to exporter
          compliance with license conditions, BIS plans to develop a “license condition
          enforcement program” in FY 2005. Reportedly, the program will address
          compliance by export license holders, including exports of controlled technology
          to FNUS. However, based on Commerce OIG’s initial discussions with BIS
          management, it does not appear that the program will include any type of on-site
          verifications or reviews of compliance with license conditions. Instead, BIS
          officials indicated that the program will most likely focus on reviews of licenses
          and conditions by BIS headquarters staff to identify red flags (for example, not
          complying with a license requirement to send BIS information about the shipment
          of the goods within a specified timeframe) that can be referred out to export
19
     A technology control plan outlines company programs and policies to protect controlled technology.

                                                    18
enforcement agents for investigative purposes, rather than targeting companies for
compliance reviews.

Commerce OIG recommended that BIS develop a compliance program that
effectively evaluates license holders’ compliance with license conditions for the
release of export-controlled technology to FNUS. At a minimum, reviews should
determine whether:

       •   all research, including access to technology, is being performed in
           accordance with license conditions;

       •   deviations from the foreign national’s stated job responsibilities stay
           within the technical parameters of the license; and

       •   the technology control plan used by the subject U.S. entity accurately
           and fully reflects the entity’s practices.

BIS management reported that Export Enforcement would initiate a pilot post
shipment verification program on the most sensitive export licenses for the
release of export-controlled technology to FNUS issued by BIS. The teams,
comprised of licensing engineers and enforcement agents, will be responsible for
determining compliance with the license conditions for the release of export-
controlled technology to FNUS and detecting any violations.

State Policies and Procedures. State OIG found that PM/DDTC did not perform
Government audits to monitor compliance with export regulations, relying instead
on voluntary disclosures by exports and self audits by companies. However, visa
policies and procedures and export control programs at the entities visited
enhanced compliance with export control regulations.

         Government Audits. PM/DDTC did not conduct Government audits of
company export compliance programs or issue areas, but plans to inspect selected
compliance issue areas in the future. PM/DDTC officials explained that there are
staffing authorizations contained in the FY 2005 PM/DDTC Performance Plan for
two former Customs agents. When hired, those agents would be tasked with
developing policies and procedures for conducting Government issue area
compliance inspections. Additionally, an inspection team comprised of those
agents and augmented by other Compliance Office staff would conduct reviews,
to include addressing areas such as why companies have not filed voluntary
disclosures. State OIG recommended that PM/DDTC develop export control
policies and procedures for an Office of Compliance audit program that would
supplement the export controls already in place through company self-audits and
voluntary disclosures, visa policies and procedures, and entity export control
programs. State management concurred with the recommendation. However,
PM/DDTC was concerned about the publication of those procedures for any
application beyond the Compliance Office’s internal use. The Compliance Office
recently hired two contractors, and developing internal policies and protocols is
one of the their first priorities. The office plans to make targeted visits related to
specific compliance issues, not full audits of a company’s compliance program.
State OIG considers that actions taken and planned by PM/DDTC meet the intent
of this recommendation.

                                     19
                    PM/DDTC relied on company self-audits and voluntary disclosures to
            monitor compliance with export control regulations. Specifically, PM/DDTC
            used company self-audits to determine whether a company’s internal controls for
            ITAR compliance were adequate. Typically, self-audits address specific or
            general export control concerns, as part of a company’s own initiatives or a
            PM/DDTC-directed remedial administrative action as a result of an ITAR
            violation. State OIG reviewed 45 ITAR violation cases closed by the PM/DDTC
            Compliance Office in FY 2003 and found that U.S. companies had conducted
            11 self-audits, of which two were directed by PM/DDTC. PM/DDTC typically
            uses the results of self-audits during the process of its review of corrective actions
            taken by companies to resolve ITAR violation cases. For those companies
            performing self-audits on export compliance, State OIG found that PM/DDTC
            policy and procedures were clear. Self-audits of company export compliance are
            either conducted by a company’s own internal auditors or by company-selected
            external auditors. To assist companies in conducting self-audits, PM/DDTC
            established and posted on the PM/DDTC Web site “Guidelines for DTC [Defense
            Trade Controls] Registered Exporters/Manufacturers Compliance Program.”
            Additionally, PM/DDTC officials provided State OIG with selected sections of its
            draft “Compliance and Enforcement Branch, Office of Defense Trade Controls,
            Compliance Quick Reference” (November 2003). The draft quick reference
            addresses company self-audits and PM/DDTC-directed audits as part of an in-
            depth examination of a compliance program.

                    Visa Policies and Procedures. State OIG found that despite the lack of
            Government audits, State’s policies and procedures for granting visas enhance
            compliance with export control regulations. Specifically, the Bureau of Consular
            Affairs visa application process and Security Advisory Opinions (SAOs)20 are
            part of a screening process to identify foreign nationals that are a national
            security, intelligence, law enforcement, or potential nonproliferation concern to
            the United States. If a foreign national receives an adverse SAO, the foreign
            national would be denied a visa and denied entry into the United States.
            However, foreign nationals that are granted visas and are sponsored by a U.S.
            company or academic institution still require an export license or other authorized
            approval before they can be allowed to have access to export-controlled
            technology.

                    Compliance Program Best Practices. State OIG found that in addition
            to the export controls inherent in the visa application process, the entities it
            visited had established programs that enhance compliance with export control
            regulations. Specifically, State OIG reviewed the ITAR compliance programs of
            seven companies and one academic institution and found that some of those
            export control compliance programs had processes in place that could be
            beneficial for use throughout the export control community. State OIG believes
            that policies that enhance compliance with Federal export laws and regulations
            related to the transfer of export-controlled technology to FNUS include:



20
     An SAO is initiated abroad, by request, by State’s Consular Affairs to assist in rendering a decision as to
     the visa applicant’s admissibility. The SAO consists of a coordinated effort conducted by U.S. law
     enforcement, intelligence, and nonproliferation agencies.

                                                        20
       •   an automated export tracking system, which includes information on
           foreign nationals’ visa and export license expirations and the export-
           controlled technology the foreign national is exposed to;

       •   detailed site visitor request forms, which provide sufficient personal
           information about the prospective visitor for project managers, export
           control officials, and security personnel to make informed visitor
           authorization determinations;

       •   unique badging that easily identifies foreign employees and visitors
           and automatically restricts access to work areas; and

       •   an automated export control training and testing system that provides
           ITAR basic and refresher training with competency scores, remedial
           testing for failed attempts, automated record keeping, and assurance
           that tests were completed prior to issuance of access control badges.

Defense Policies and Procedures. Defense OIG found that although Defense
established clear guidance to identify and prevent unauthorized transfer of critical
data for its acquisition and classified programs, Defense did not have clearly
defined policy that would prevent the unauthorized disclosure of unclassified
export-controlled technology to FNUS. Specifically, DoD guidance does not
delineate Defense responsibilities to identify and control the release of export-
controlled technology to FNUS. It also does not provide sufficient policies and
procedures to obtain reasonable assurance that facilities have a license for the
release of export-controlled technology to FNUS or prevent unauthorized access
to unclassified export-controlled technology by ensuring that access requirements
are included in contractual documentation. In addition, the Defense Federal
Acquisition Regulation Supplement does not contain a standard clause that
requires the contractor to comply with Federal export laws and regulations related
to the release of export-controlled technology to FNUS. Until Defense program
managers are held accountable for identifying export-controlled technology and
obtaining reasonable assurance that facilities have a license or authorized
approval for the release of export-controlled technology to FNUS, or that
facilities have controls in place to prevent unauthorized access to the technology,
Defense will continue to be at an increased risk of releasing unclassified export-
controlled technology to FNUS from countries of concern who could then counter
or reproduce the technology and thus reduce its effectiveness.

Defense OIG recommended that management develop and implement guidance
for the release of export-controlled technology to FNUS. Specifically, guidance
should be developed and expanded to include Defense and facility personnel
responsibilities and requirements applicable to the release of all export-controlled
technology to FNUS. Defense OIG also recommended that the Defense Federal
Acquisition Regulation Supplement incorporate the requirements of Federal
export laws and regulations and to ensure that Defense program managers and
contracting officers incorporate the requirements into contractual documentation
when the contracts involve export-controlled technology. Defense management
concurred with the recommendations.



                                     21
            Homeland Security Policies and Procedures. Homeland Security OIG found
            that Homeland Security policies and procedures did not explicitly foster
            compliance with requirements controlling the release of export-controlled
            technology to FNUS or provide a reasonable level of assurance that controlled
            technology was adequately protected and not inappropriately released to foreign
            nationals.

            The Student and Exchange Visitor Information System21 does not explicitly
            screen prospective foreign students and exchange program participants using
            requirements related to the release of export-controlled technology to FNUS as
            exclusionary criteria. Further, regulatory restrictions on course enrollment or
            program participation at academic institutions apply only to F-1, M-1, or J-1 visa
            holders22 from Libya. The potential effect is that non-Libyan foreign students or
            exchange visitors may gain access to controlled technology as a result of their
            participation in coursework at U.S. academic or vocational institutions,23 or in
            post-graduate training programs.

            In processing foreign nationals’ change of visa status applications filed
            domestically, Homeland Security does not incorporate the same control measures
            employed by State. State is responsible for processing initial visa applications
            filed overseas and requires that an SAO be issued for all foreign nationals from
            countries of concern prior to approval. SAOs are performed by State to help
            ensure that controlled technology is not inappropriately released to foreign
            nationals. Conversely, Homeland Security’s CIS, which is responsible for
            processing change of status applications filed within the United States through
            pre-approval background checks via the Interagency Border Inspection System,
            does not include the protection of controlled technology as part of its adjudication
            criteria. State also has the authority to deny outright any visa application on the
            grounds of national security, whereas CIS can delay but not deny outright any
            change of status application. These differences between State and Homeland
            Security in their pre-approval adjudication procedures and their respective
            authorities to deny non-immigrant applications based on national security
            concerns create a loophole that foreign nationals could exploit in order to gain
            inappropriate access to controlled U.S. technology.
            Homeland Security does not provide information to Commerce that could support
            Commerce’s efforts to identify and investigate potential violations related to the
            transfer of export-controlled technology to FNUS. As a result, information from
            thousands of change of visa status applications filed domestically with CIS is not
            reviewed to generate investigative leads for Commerce.


21
     The Student and Exchange Visitor Information System collects certain information, such as dates and
     locations of entry and exit, courses of study, and the names of sponsoring academic institutions, on non-
     immigrant foreign students holding specific visas and their dependents. Currently, the system contains
     approximately 567,000 active and unique records of foreign students and more than 100,000 active and
     unique records of exchange visitors.
22
     F-1 visas are for academic students; M-1 visas are for vocational students; and J-1 visas are for exchange
     visitors.
23
     Vocational institutions include traditional trades-oriented programs, business schools, or other non-
     academic programs, excluding language training programs.

                                                        22
To address these issues, Homeland Security OIG recommended that the Under
Secretary for Border and Transportation Security expand beyond Libya the list of
countries of concern whose students or exchange visitors are considered for
evaluation based on regulatory restrictions concerning enrollment in certain
courses of study or participation at approved U.S. institutions. Homeland
Security OIG also recommended that the Under Secretary for Border and
Transportation Security examine the need to expand the list of restricted
disciplines to include any others which may potentially expose foreign nationals
to information directly related to those controlled technologies listed in either the
Commerce Control List or the United States Munitions List. Based on the
changes to these lists, SEVIS should be modified accordingly. ICE management
did not concur with these recommendations. The OIG plans to meet with DHS
management to resolve issues associated with these recommendations and
establish corrective measures. In addition, Homeland Security OIG
recommended that the Deputy Secretary should strengthen Homeland Security's
current change of status adjudication procedures, including additional controls,
such as obtaining an SAO from State for preventing the inappropriate release of
export-controlled technologies to foreign nationals from countries of concern.
Homeland Security OIG also recommended that the Director of CIS:

       •   assess the feasibility of modifying the Interagency Border Inspection
           System to interface with those federal agencies currently responsible
           for issuing SAOs to State and for advising Commerce on the
           protection of dual-use technologies;

       •   seek the discretionary authority to deny outright any immigrant or
           non-immigrant benefit, including changes of visa status, on the
           grounds of national security; and

       •   to help identify possible investigative leads for follow-up, provide
           Commerce with access to data from foreign nationals' approved
           change of status applications as stored in the Computer Linked
           Application Information Management System.

Homeland Security management concurred with these recommendations.




                                     23
                     C. Reexamination of License Exemptions
            Commerce and Defense OIGs found that some of the Federal export license
            exemptions eliminate a large number of foreign nationals from license
            requirements and might offer a means for a foreign national from a country of
            concern to circumvent regulations concerning the release of export-controlled
            technology to FNUS. As we noted in our 2000 interagency report, several of the
            license exemptions outlined in Federal export regulations are broadly applied.
            For instance, licensing exemptions in both the EAR and the ITAR apply to
            fundamental research and to foreign nationals with permanent resident status.
            The EAR also exempts publicly available technology and software that are
            already published or will be published or are educational. Commerce and
            Defense OIGs determined that those broadly applied exemptions might allow the
            transfer of sensitive U.S. technology to countries or entities of concern and could
            ultimately affect national security.


Publicly Available Technology
            Published or Will Be Published. Research that is intended for publication,
            whether it is ever accepted by a scientific journal or not, is exempt from the EAR.
            As such, if a foreign national graduate student from a country of concern, such as
            China, works with a U.S. researcher on the dengue fever virus, no export license
            is required for the release of export-controlled technology to FNUS as long as the
            U.S. researcher intends to publish the results. Although Commerce and Defense
            OIGs understand that the ultimate goal of researchers is to publish their work,
            anyone could claim to intend to publish research but ultimately decide not to for
            various reasons, such as the results being deemed too sensitive for public release.

            Although not in the context of export control regulations concerning the release of
            export-controlled technology to FNUS, the scientific community itself (especially
            with regard to biotechnology) is struggling with the publishability issue as it
            relates to national security. Specifically, since September 11, 2001, the U.S.
            scientific community has been debating whether researchers and publishers
            should start censoring research results if publication of those results could allow
            misuse by terrorists. Some scientific journals are beginning to screen out the
            publication of research results if it is determined that the risk of misuse outweighs
            potential scientific benefit.

            For instance, while the American Society for Microbiology does not support
            unwarranted restrictions on the free flow of legitimate scientific communications
            within microbiology that could lead to valuable advances in biomedical science,
            according to testimony before the House Committee on Science, the society has
            adopted specific policies and procedures for its journals24 to provide a degree of
            careful scrutiny in the peer review process for submitted manuscripts dealing with

24
     The American Association for Microbiology publishes 11 scientific journals focusing on distinct
     specialties within the microbiological sciences, including Infection and Immunity, Journal of
     Bacteriology, and Journal of Virology.

                                                      24
            certain biological agents. Essentially, the peer review process seeks to determine
            whether an article contains details of methods or materials that might be misused.
            At the American Association for the Advancement of Science’s annual meeting in
            February 2003, the President of the American Association for Microbiology noted
            that an example of a study that probably would not get published would involve
            “a study that tinkers with a pathogen such as anthrax to make it more deadly.”25

            While Commerce and Defense OIGs believe that these are positive steps in
            protecting the release of unclassified but sensitive and potentially dangerous
            research results, these are “back-end” measures that may come too late to protect
            sensitive and possibly export-controlled technology if a foreign national from a
            country of concern was part of the team conducting the research. As such,
            researchers in the academic and public and private research community need to
            review the subject of their research up front to determine its sensitivity and
            potential applicability to export controls over the release of export-controlled
            technology to FNUS.

            Fundamental Research. National Security Decision Directive 189, “National
            Policy on the Transfer of Scientific, Technical and Engineering Information,”
            September 21, 1985, establishes the national policy for controlling the flow of
            science, technology, and engineering information produced by federally funded
            fundamental research at colleges, academic institutions, and laboratories. The
            principle set out by the 1985 directive maintains that the results of fundamental
            research should be unrestricted to the maximum extent possible and that
            classification should be the mechanism for what control might be required.

            As we reported in our March 2000 interagency report, Commerce and Defense
            OIGs were concerned that the definition of fundamental research may be vague
            and unclear. Both the EAR and the ITAR define fundamental research as “basic
            and applied research in science and engineering where the resulting information is
            ordinarily published and shared broadly within the scientific community.” As
            such, the regulations distinguish fundamental research from proprietary research
            and industrial development, design, production, and product utilization, where the
            results are ordinarily restricted from publication for proprietary reasons or
            national security reasons. Neither regulation clearly defines "basic and applied
            research" or "proprietary research and development." However, deciding whether
            research is "basic," "applied," or "developmental" does not appear to be the
            deciding factor for either the academic community or Federal laboratories in
            determining whether research qualifies as "fundamental." Instead, the decision
            rests more on the "publishability" of the research and whether there are any
            restrictions placed on it; if there are no restrictions placed on the publication of
            the research, these individuals classify their research as "fundamental."

            Office of Management and Budget Circular A-11, “Preparation and Submission
            of Budget Estimates,” July 12, 1999, provides definitions for basic research,
            applied research, and development. The following table presents the definitions.



25
     Nature, “Biologists Undertake Bioterror Surveillance: Scientists and journals agree to watch for risky
     research,” February 16, 2003.

                                                       25
                       Definitions for Levels of Research

  Type of Research                                  Definition

    Basic Research            Systematic study directed toward greater
                              knowledge or understanding of the fundamental
                              aspects of phenomena and of observable facts
                              without specific applications toward processes or
                              products in mind.
  Applied Research            Systematic study to gain knowledge or
                              understanding necessary to determine the means by
                              which a recognized and specific need may be met.

    Development               Systematic application of knowledge toward the
                              production of useful materials, devices, and systems
                              or methods, including design, development, and
                              improvement of prototypes and new processes, to
                              meet specific requirements.



The Office of Management and Budget Circular does not use publication as a
decision factor in determining whether work performed is basic or applied
research, or if it is developmental. The definitions provided in the Circular focus
on the nature of the research itself.

Commerce and Defense OIGs reported that contractors and academic institutions
generally rely only on contract clauses that restrict publication to determine
whether the fundamental research exemption applies. Based on information
provided by Defense OIG, Commerce OIG reported that two Defense contractors
with foreign national employees relied on contract language to identify export
requirements and were completely unaware of regulations related to the release of
export-controlled technology to FNUS. Defense OIG visited six academic
institutions that applied the fundamental research exemption to a majority of their
Defense contracts; however, two out of the six academic institutions visited used
publication restrictions solely to determine whether the fundamental exemption
applied. The other four academic institutions used publication along with other
evaluations to determine whether the research was fundamental.

Defense OIG found that some of the contracts that did not have publication
restrictions contained technology controlled by either the EAR or the ITAR.
Those contracts would be considered fundamental research based on the
definitions in the EAR and the ITAR. For example, an academic institution was
awarded a contract to design and deliver components to be incorporated into an
unmanned reconnaissance vehicle. The statement of work identified the specific
system the contract was for and contained requirements to deliver actual
components. A review by DTSA personnel determined that the technology was
controlled by ITAR section XI(b). Section XI(b) states that electronic systems or

                                     26
            equipment specifically designed, modified, or configured for intelligence,
            security, or military purposes for use in search and reconnaissance should be
            export-controlled. If Office of Management and Budget Circular A-11 definitions
            were applied, this project would clearly fall under the heading of development,
            rather than either basic or applied research. However, since the contract did not
            contain publication restrictions, the university could have considered the work
            fundamental under the ITAR.

            Educational. Commerce OIG found that educational information is exempt from
            Federal export regulations if it is released as instruction in catalog courses and
            associated teaching laboratories of academic institutions. For example, a course
            on design and manufacture of high-performance machine tools would not be
            subject to the EAR if taught to foreign nationals as part of an academic institution
            graduate course. However, this same information, if taught as a proprietary
            course by a U.S. company to foreign nationals, would require a license because
            the company does not qualify as an academic institution. It should be noted,
            however, that scientists, engineers, or students working in a laboratory may be
            required to use EAR-controlled equipment to perform their work. As such, while
            the actual research performed may be exempt from the EAR, the use of controlled
            equipment is not.


Foreign Nationals with Permanent Resident Status
            Foreign nationals with permanent resident status are exempt from licensing
            requirements controlling the release of export-controlled technology to FNUS in
            both the EAR and the ITAR.26 Prior to 1994, the definition of “export of
            technical data” in the EAR included “any release of technical data in the United
            States with the knowledge or intent that the data will be shipped or transported
            from the United States to a foreign country.”27 However, in a 1994 change to
            clarify this language for industry, BIS amended this portion of the definition to
            the following:28
                         Any release of technology or source code subject to the EAR to a
                         foreign national. Such release is deemed to be an export to the home
                         country or countries of the foreign national. This deemed export rule
                         does not apply to persons lawfully admitted for permanent residence in
                         the United States.29

            The rationale provided by BIS for eliminating foreign nationals with permanent
            resident status from licensing requirements for the release of export-controlled
            technology to FNUS appears to have been that persons who hold permanent

26
     One definition of an export provided in the ITAR is the disclosure or transfer of technical data to a
     foreign person. The ITAR defines a foreign person as any person who is not a permanent resident of the
     United States or is not a protected individual as defined by the Immigration and Naturalization Act.
27
     15 Code of Federal Regulations, part 779.1(b)(1) (1994).
28
     Defense and State authorities approved the amended definition.
29
     15 Code of Federal Regulations, part 734.2(b)(2)(ii) (2003).

                                                       27
    resident status have made a commitment to the United States and most likely will
    not return home. It should be noted, however, that a permanent resident may
    never become a U.S. citizen and is under no requirement to become one. In
    addition, individuals with permanent resident status still could travel back and
    forth to their home country, could retain their home country citizenship, and could
    transport export-controlled technology without any monitoring by the U.S.
    Government. However, permanent residents that become U.S. citizens must
    renounce their citizenship of other countries, thus making a higher commitment to
    the United States.


Conclusion
    Commerce OIG made a recommendation in its FY 2000 report that BIS work
    with the National Security Council to determine the intent of the licensing
    exemptions for the release of export-controlled technology to FNUS and whether
    those exemptions unduly threaten national security by eliminating a large number
    of foreign nationals in the United States from export licensing requirements.
    Since the recommendation was not fully addressed, Commerce and Defense OIGs
    believe that it is necessary to again raise the awareness of those issues in the
    interagency report. However, due to the fact that those issues cannot be
    addressed independently by each agency, Commerce and Defense OIGs suggest
    that BIS work with Congress or the National Security Council, or both, to
    reexamine export license exemptions to ensure that implementing regulations are
    in alignment with the intent of U.S. export control laws to prevent the acquisition
    of sensitive U.S. technology by countries and entities of concern.




                                        28
Appendix A. Scope and Methodology

Interagency Scope
    The review assessed the adequacy of export control regulations and export
    licensing policies, procedures, and practices to protect against the transfer of
    sensitive U.S. technology and technical information to foreign nationals from
    countries and entities of concern while they are in the United States. Specifically,
    the review focused on the EAA and the AECA and other applicable laws,
    executive orders, regulations, and departmental guidance regarding controls over
    technology subject to Federal export laws and regulations. In addition, we
    assessed the Federal Government’s implementation of such regulations related to
    the release of export-controlled technology to FNUS. The review primarily
    focused on whether U.S. academic institutions, Federal contractors and other
    private companies, and research facilities were in compliance with export
    licensing regulations related to the release of export-controlled technology to
    FNUS and whether export licenses were required and obtained, as necessary, for
    foreign national employees, students, or visitors. The participating review teams
    were from Commerce, Defense, Energy, Homeland Security, State, and CIA
    OIGs.


Interagency Methodology
    To coordinate the review issues related to the release of export-controlled
    technology to FNUS and determine the work to be performed by each OIG team,
    the six OIGs formed an interagency working group and held monthly meetings
    while conducting agency-specific reviews. The interagency working group
    collectively met with BIS, PM/DDTC, the Federal Bureau of Investigation, and
    the Executive Office of the President’s Office of Science and Technology Policy
    to discuss the relevant regulations regarding the release of export-controlled
    technology to FNUS. The group also requested a meeting with the National
    Security Council; however, the National Security Council declined the meeting.
    The OIG review teams also jointly visited U.S. academic institutions, Federal
    contractors and other private companies, and research facilities to identify and
    evaluate the adequacy of internal management controls to protect militarily
    sensitive technology and technical information, when appropriate.

    To determine the adequacy of controls to protect militarily sensitive technology
    and technical information from unlicensed export, the OIG review teams
    contacted officials within those entities, personnel within each OIG’s agency, and
    personnel within other Federal agencies and organizations, as appropriate, who
    were involved in the export licensing process. Each review team assessed
    authorizations for foreign national employees, students, and visitors to determine
    whether foreign nationals might have had access to any militarily sensitive
    technology or technical information for which an export license would have been
    required. The OIG review teams coordinated and worked with personnel in their

                                         29
           respective agencies during the reviews. The interagency review was conducted
           from June 2003 through March 2004.


Agency-Specific Methodology
           Appendixes B through G contain the agency-specific OIG reports and the
           methodology used for each review. The information gathered and the analyses
           performed in developing those reports were used to produce the interagency
           report.

           Commerce OIG Methodology. Commerce OIG sought to assess the
           effectiveness of the export control regulations and policies concerning the release
           of export-controlled technology to FNUS, and their implementation by BIS, as
           well as compliance with the regulations by U.S. industry (particularly Federal
           contractors), academic institutions, and several bureaus in the Department of
           Commerce.

           To conduct its program evaluation, Commerce OIG interviewed various BIS
           officials, including senior managers, attorneys, licensing officials, and
           enforcement staff. In addition, Commerce OIG spoke with officials at NIST and
           NOAA, as well as representatives from Commerce’s Office of Security, to follow
           up on recommendations the OIG made in previous reports related to the release of
           export-controlled technology to FNUS.

           External to Commerce, Commerce OIG met with officials from the State
           Department’s Bureau of Economic Affairs and PM/DDTC and the Treasury
           Department’s Office of Foreign Assets Control to understand their roles in
           preventing the release of controlled technology to foreign nationals. In addition,
           Commerce OIG interviewed export compliance officers, legal counsels, or both,
           from three major high-technology companies and two defense contractors to
           assess their awareness of export controls concerning the release of export-
           controlled technology to FNUS and discuss their internal control policies for
           compliance with regulations regarding the release of export-controlled technology
           to FNUS. Commerce OIG also talked with members of BIS’s Regulations and
           Procedures Technical Advisory Committee1 and with members of a major trade
           association to obtain their views on the effectiveness of export controls
           concerning the release of export-controlled technology to FNUS. Furthermore, to
           assess academic officials’ knowledge and compliance with the regulations,
           Commerce OIG visited and held discussions with appropriate officials from nine
           major academic institutions across the country.

           To evaluate BIS’s regulatory, budgetary, and organizational policies and
           processes related to export regulations concerning the release of export-controlled
           technology to FNUS, Commerce OIG reviewed previous and current regulations
           and policies governing the release of export-controlled technology to FNUS. To

1
    The Regulations and Procedures Technical Advisory Committee is composed of industry and government
     representatives who advise and assist BIS with the implementation of the EAR and with any necessary
     revisions to the EAR.

                                                    30
review BIS’s implementation of the regulations, Commerce OIG evaluated BIS’s
procedures for processing export licenses for the release of export-controlled
technology to FNUS. As part of that process, Commerce OIG reviewed licenses
for the release of export-controlled technology to FNUS issued from FY 2000
through June 16, 2003. However, Commerce OIG could not fully evaluate 111
licenses it selected for further study because BIS was unable to provide
Commerce OIG with supporting documentation (for example, foreign nationals’
résumés, intelligence review results, and Federal Bureau of Investigation name
check results) due to technical difficulties with the system that maintains that
data. Commerce OIG also assessed BIS’s educational outreach to business and
academic communities and followed up on BIS’s previous outreach efforts to
other Government agencies.

In addition, Commerce OIG followed up on the status of recommendations from
prior Commerce OIG reviews conducted under the requirements of the FY 2000
National Defense Authorization Act.

Defense OIG Methodology. Defense OIG evaluated the adequacy of established
Defense policies and procedures to prevent the transfer of export-controlled
technology to FNUS. Specifically, Defense OIG judgmentally selected
11 contractors, 6 academic institutions, and 3 Federally Funded Research and
Development Centers to visit. During the facility visits, Defense OIG reviewed
contracts to determine whether export-controlled technology was identified.
Defense OIG reviewed 116 contracts to identify clauses that may have alerted
facilities that the contract may have involved export-controlled technology. At
each facility, Defense OIG interviewed contracting and project managers and,
when applicable, security, human resources, and legal personnel to determine
their knowledge of Federal export laws and regulations and to identify controls in
place to prevent unauthorized disclosure of export-controlled technology to
FNUS.

Defense OIG conducted interviews with officials from the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics and components
of that office; the Under Secretary of Defense for Policy; the Under Secretary of
Defense for Intelligence; the Deputy Under Secretary of Defense (Industrial
Policy); the Secretary of the Air Force’s Office of International Affairs; the Navy
International Programs Office; the Office of Naval Research; the Army Aviation
and Missile Command; and the Army Space and Missile Defense Command.
Outside of Defense, Defense OIG met with the Federal Bureau of Investigation.

In addition, Defense OIG followed up on the status of recommendations from
prior Defense OIG audits conducted under the requirements of the FY 2000
National Defense Authorization Act.

Energy OIG Methodology. Energy OIG conducted a limited review of controls
over the release of export-controlled technology to FNUS at one U.S. company
that conducts work for the National Nuclear Security Administration and the
Energy Office of Science and at one Federal research facility that is managed for
Energy by the Energy Office of Science. Energy OIG interviewed Federal,
contractor, and Energy and National Nuclear Security Administration
headquarters officials and officials at the Livermore Site Office and the Chicago

                                    31
Operations Office. Energy OIG also reviewed documents relevant to export
controls and foreign visits and assignments. Energy OIG also evaluated Energy’s
implementation of the “Government Performance and Results Act of 1993.”

Energy OIG followed up on the status of recommendations from prior Energy
OIG reviews conducted under the requirements of the FY 2000 National Defense
Authorization Act.

Homeland Security OIG Methodology. Homeland Security OIG conducted an
evaluation that:

       •   reviewed and analyzed the practices and procedures, directives,
           policies, regulations, and laws applicable to the release of export-
           controlled technology to FNUS;
       •   interviewed Homeland Security agency officials and other personnel
           to determine whether Homeland Security is complying with applicable
           laws, regulations, and directives;

       •   assessed Homeland Security’s efforts in screening visa applications as
           applicable to this review; and

       •   selected Homeland Security offices to determine whether they were
           following applicable policies and procedures as it related to
           requirements regarding the release of export-controlled technology to
           FNUS.

Within CBP, Homeland Security OIG interviewed officials and personnel from
the Offices of Security and Facilitation Outbound Programs, Passenger
Processing, Chief Financial Officer/Bankcard Programs, Field Operations, and
Planning and Evaluation Oversight. Within CIS, interviews were held with
officials and personnel from the Offices of Operations; Special Operations; Field
Operations; Programs and Regulations Development; Service Center Operations;
Benefits Systems Division; Fraud Detection and National Security; and Internal
Audit. Also, within ICE, Homeland Security OIG interviewed investigative
agents and personnel from the Offices of Investigations-Strategic Investigations
Division, the Strategic Intelligence Unit and the National Security Investigations
Division; the Student and Exchange Visitor Program office; the Data Systems
Division; and the Internal Audit Division.

Homeland Security OIG conducted followup reviews at appropriate offices at
both Homeland Security and the Treasury on prior recommendations from two
Treasury OIG audit reports.

State OIG Methodology. State OIG interviewed officials and reviewed
documents at PM/DDTC, including the Offices of Management, Policy,
Licensing, and Compliance; the Bureaus of Consular Affairs, Economic and
Business Affairs, and Nonproliferation; other Government agencies, including the
Federal Bureau of Investigation; and selected companies and an academic
institution participating in U.S. Defense trade. State OIG conducted site visits at
seven companies (U.S.- and foreign-owned) and an academic institution to assess

                                    32
their internal practices for compliance with the ITAR and their controls over
foreign employees and visitors. State OIG selected sites from lists of U.S.- and
foreign-owned companies and academic institutions registered with PM/DDTC
and identified as having ITAR-licensed foreign employees or researchers.
Selected documents that State OIG reviewed included visas and passports of
foreign employees and researchers and company export licenses, technology
control plans, and nondisclosure agreements. State OIG reviewed PM/DDTC
Compliance Office procedures and processes for conducting compliance audits,
investigations, and reviews. State OIG also reviewed company export control
compliance programs and voluntary disclosures of export violations submitted to
PM/DDTC, with an emphasis on disclosures involving foreign nationals.

State OIG followed up on the status of recommendations from prior State OIG
audits conducted under the requirements of the FY 2000 National Defense
Authorization Act.
CIA OIG Methodology. CIA OIG met with managers from WINPAC who are
responsible for reviewing export licenses and other license-related requests
concerning the export of munitions, dual-use technology, and U.S. technology
associated with satellite launches. CIA OIG also met with managers from the
Directorate of Operations’ External Inquiries Branch who are responsible for
conducting name trace requests. Using data from WINPAC’s database, CIA OIG
determined the number of cases regarding the release of export-controlled
technology to FNUS reviewed each year. CIA OIG also reviewed
correspondence between WINPAC and the Departments of Commerce and
Defense regarding the level of CIA involvement in the licensing process for the
release of export-controlled technology to FNUS.




                                   33
